<html>
<title> - FULL COMMITTEE HEARING ON EXPANDING EQUITY INVESTMENT IN SMALL BUSINESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                       FULL COMMITTEE HEARING ON:
                      EXPANDING EQUITY INVESTMENT
                           IN SMALL BUSINESS

=======================================================================

                                HEARING

                               before the


                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             MARCH 26, 2009

                               __________

     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               

            Small Business Committee Document Number 111-013
Available via the GPO Website: http://www.access.gpo.gov/congress/house



                  U.S. GOVERNMENT PRINTING OFFICE
47-799                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gov Phone: toll free (866) 512-1800 Fax: (202) 512-2250  Mail: Stop IDCC, Washington, DC 20402-0001





                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                        PARKER GRIFFITH, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

        .........................................................

                                  (ii)

  


              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, Pennsylvania, Chairman


HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma, Ranking
BRAD ELLSWORTH, Indiana              LOUIE GOHMERT, Texas
PARKER GRIFFITH, Alabama

                                 ______


                                 (iii)

  










                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Altmire, Hon. Jason..............................................     1
Fallin, Hon. Mary................................................     2

                               WITNESSES

Hendrickson, Ms. Pamela, COO, The Riverside Company, New York, NY     5
Neff, Mr. P. Sherrill, Founding Partner, Quaker BioVentures, on 
  behalf of the National Venture Capital Association.............     7
Walker, Mr. Tom, Presidents & CEO, 12e, Oklahoma City, OK, on 
  behalf of the Biotechnology Industry Association...............     9
Mott, Ms. Catherine, Founder & CEO, Blue Tree Capital Group, LLC, 
  Wexford, PA....................................................    11
May, Mr. John, Founder & Managing Partner, New Vantage Group, on 
  behalf of the Angel Capital Association........................    13
Dalton, Mr. Patrick, President & COO, Apollo Investment 
  Corporation....................................................    15

                                APPENDIX


Prepared Statements:
Hendrickson, Ms. Pamela, COO, The Riverside Company, New York, NY    24
Neff, Mr. P. Sherrill, Founding Partner, Quaker BioVentures, on 
  behalf of the National Venture Capital Association.............    36
Walker, Mr. Tom, Presidents & CEO, 12e, Oklahoma City, OK, on 
  behalf of the Biotechnology Industry Association...............    48
Mott, Ms. Catherine, Founder & CEO, Blue Tree Capital Group, LLC, 
  Wexford, PA....................................................    54
May, Mr. John, Founder & Managing Partner, New Vantage Group, on 
  behalf of the Angel Capital Association........................    59
Dalton, Mr. Patrick, President & COO, Apollo Investment 
  Corporation....................................................    67

                                  (v)

  

 
FULL COMMITTEE HEARING ON EXPANDING EQUITY INVESTMENT IN SMALL BUSINESS

                              ----------                              


                        Thursday, March 26, 2009

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360 Rayburn House Office Building, Hon. Jason Altmire 
[chairman of the Subcommittee] presiding.
    Present: Representatives Altmire, Ellsworth and Fallin.
    Chairman Altmire. I now call this hearing to order.
    This hearing of the Investigations and Oversight 
Subcommittee is called to order, and there is no question that 
the recession has hurt the balance sheets of small businesses. 
Profits are down in nearly every industry, and conventional 
forms of financing from bank loans to credit lines are limited.
    Under normal circumstances, accessing capital is something 
of an obstacle. Since the dramatic meltdown of our financial 
markets last September, accessing capital has become especially 
challenging and not just for businesses seeking traditional 
funding. Even high growth start-ups are struggling to secure 
equity investment, such as venture capital.
    Historically, high growth firms have relied on equity 
capital to get their businesses off the ground. For 
entrepreneurs who have solid business plans but lack immediate 
marketable products, venture capital and angel investment 
financing is crucial to the success of these companies. These 
forms of financing allow these companies the time they need to 
research and develop. In some cases funding may also come with 
managerial and technical experience. These kinds of resources 
have helped launch countless new businesses from software 
start- ups to biotech firms.
    Many of today's industry leaders and innovators from Apple 
Computers to Sun Microsystems got off the ground with equity 
capital, and yet today this important form of investment has 
become increasingly hard to come by. In my home region of 
Pittsburgh, we have had the opportunity to team up with 
businesses in Cleveland Ohio to help facilitate venture capital 
investments. This partnership has attracted over 80 national 
venture capital funds to invest in more than 60 health care 
venture capital investments in the tech belt region.
    Cleveland and Pittsburgh are now ranked second and third in 
national health care investment. Although this is one good 
example of the high quality investments that can be achieved 
through venture capital, it is important to consider how the 
current economic situation is affecting these investments. By 
one estimate the Small Business Administration leaves $60 
billion in unmet capital needs annual, and in an economic 
downturn these additional needs must be met elsewhere, such as 
venture capital, angel investing and other equity investing 
mechanisms.
    In today's hearing we will discuss the decline in these 
investments and look for ways to respond to this challenge. 
Equity capital is the fuel that feeds the start-up communities' 
best and brightest. These are the businesses that create new 
jobs and revolutionize entire sectors of the economy. In 2006, 
angel investment alone helped generate 200,000 positions. 
Equity investment not only spurs small business growth, but 
also sparks the development of new products and industries.
    Unfortunately, however, the deepening recession has 
dampened the equity capital markets and stunted small business 
growth. Amid growing uncertainty in the economy, many venture 
capital and angel investors are pulling back. In the last 
quarter of 2008, venture capital investments plunged $5.4 
billion. That is more than a 33 percent drop from the same time 
last year.
    Meanwhile angel investment has also declined considerably. 
In a recent study by the Angel Capital Association, half of 
those surveyed said they had invested less than expected in 
2008 and one-third predicated their investments would decline 
again this year.
    The current investing climate is the most tentative we have 
seen since the dot.com meltdown nearly a decade ago. Few 
industries have been untouched by this downturn, and it goes 
without saying that businesses of all sizes are suffering.
    Of course, this will not always be the case, and once the 
clouds begin to clear and the economy starts to recover, we 
expect to see renewed growth in investment. In the meantime, 
there are a handful of policy measures worth considering, which 
we will touch on today. Those initiatives have the potential to 
not only bolster the entrepreneurial community, but jump start 
the economic recovery.
    Small businesses will play an integral role as the country 
continues to work its way out of this recession. Following the 
downturn of the mid-1990s, entrepreneurs stepped up to the 
plate to create 3.8 million new jobs. Much of that growth was 
fed by equity capital, and many of those businesses, mere 
start-ups at the time, have since grown into industry leaders.
    Entrepreneurs can help initiate that same kind of 
transformation today, but not without the resources necessary 
to create the new products that unlock those new markets.
    I look forward to hearing our witnesses' thoughts on how we 
can help small businesses survive during this economic 
downturn, and I thank them in advance for their testimony.
    And with that, I would like to yield to Ranking Member 
Fallin for her opening statement.
    Ms. Fallin. Thank you, Mr. Chairman, and good morning to 
all of our panelists. We appreciate you joining us today. We 
know that you are all very busy trying to make money. So we 
thank you for coming to testify.
    And, Mr. Chairman, I want to say just thank you for calling 
this very timely meeting on an important subject for our nation 
and especially for our small businesses and for our venture 
capitalists and our entrepreneurs of our nation who I believe 
are the backbone of America and ones who generate our jobs and 
help move our economy forward, and especially during these 
challenging times for our nation. We need to do all that we can 
to support our businesses and especially encourage innovation 
and entrepreneurship.
    So thank you all for coming here today and welcome to our 
Small Business Committee. We want to listen to you to hear from 
the experts in the industry and to be able to share this 
information today with our colleagues here in the House.
    Over the past several months this Committee has held 
numerous briefings detailing the credit crunch that is 
affecting America's small businesses, and due to the worsening 
economy, small businesses are finding it is very hard right now 
to find the capital that they need to purchase inventory to 
make payroll, to pay rent, to support their businesses, and it 
is a very tough time.
    The credit crunch affecting small businesses has been well 
documented. We know that it is an issue. No less of a problem 
although and maybe somewhat less publicized is the current 
shortfall in equity investment. We in Congress must look at all 
ways that we can stimulate small business growth as this will 
play a vital role in our nation's economic recovery.
    Equity investment, which includes the venture capital, the 
angel investing and private equity, has played a crucial role 
for a long time in the formation of small businesses for many 
decades. Unfortunately, these concepts are often some of the 
most misunderstood in entrepreneurship.
    Now, it was commonly held that venture capitalists are 
involved only in early stage financing of relatively small, 
rapidly growing technology companies. This type of investment 
may be better viewed as a professionally managed pool of equity 
capital in exchange for a piece of ownership in the pie. 
Venture and angel capitalists provide a wide range of services 
from finding additional investors to financial planning, to 
providing very valuable skills to a firm and to a business, and 
not surprising, the current economic conditions are having a 
negative impact on the amount of money that is available, the 
size of the venture capital investments in small businesses.
    Global financial markets have constricted dramatically, and 
there is little doubt that we are facing some unprecedented 
economic times. And due to this ongoing turmoil, businesses 
especially or small businesses are finding it very difficult, 
as the Chairman just stated, to raise capital from banks or 
even in the stock market. And there are times, I must say, I 
wonder about how we are affecting that by some of our talk here 
on Capitol Hill.
    Following public exchanges have been having a double impact 
on the companies seeking financing not only for the devaluing 
of private stock values and holdings, but also wiping out vast 
amounts of equity capital. When private investors see their 
portfolios shrink, they become more conservative. Money that 
might have gone to early stage private investments is sometimes 
headed off to safer harbors like CDs, mutual funds, or even 
bonds.
    And the amount of money involved nationally fluctuates from 
year to year, but over the past three years, venture capital 
dollars invested in the total number of deals have remained 
somewhat steady, around $28.6 billion and around 3,811 deals 
per year.
    That being said, 2008 saw the first yearly decline of total 
investments of venture capital since 2003. Venture capitalists 
investments in 2008 experienced an eight percent decrease in 
dollars, a four percent decrease in deal volume from 2007, and 
this decline in investments has reached all industries. I do 
not think anybody has been immune from it in all stages of 
development.
    So this hearing today is to allow us as members of the 
Small Business Committee an excellent opportunity to be able to 
hear from you, those of you who are working every day in these 
marketplaces, to know what we can do to better help you.
    And, Mr. Chairman, I will just say as I mentioned a few 
moments ago, I think sometimes our rhetoric here on Capitol 
Hill and maybe in the national media, some of the policies have 
really had an effect upon all of our investors, our 
entrepreneurs in raising money. I had the opportunity to visit 
with some of our small business owners from across our nation 
this week, and one of the things they told me was they said in 
these challenging times for our business community and with a 
recession and the different policy changes that are being 
debated here in Washington where they are dealing with 
financial markets, where it is dealing with stability, Wall 
Street, whatever it might be, they said just quit changing the 
rules on us. You know, we do not know from day to day what is 
going to happen with bailouts, stimulus, all the different 
things that we are debating here in Washington. Just do not 
change the rules. Just give us some certainty, and we will let 
loose our money and we will spend it.
    Right now we are scared. We are worried in a way that it is 
talking about raising capital gains, talking about raising 
corporate income taxes, taxes on small businesses. All of those 
things concern our business and our investors, and the equity 
markets.
    So we are looking forward to hearing from you. We have been 
very blessed in Oklahoma to have OCAST, Oklahoma Center of 
Science and Technology, and some state funds and many different 
venture capital funds in our state, and I know it is very 
important to not only our state, but to our nation.
    So thank you, Mr. Chairman, for bringing up this issue and 
holding that hearing today. We appreciate you, and I will yield 
back my time.
    Chairman Altmire. I thank Ranking Member Fallin, and I also 
want to thank Congressman Ellsworth for being here from 
Indiana. We look forward to hearing from him later.
    And I want to explain to the witnesses the process we have. 
We are going to move from your left to your right across. We 
are going to introduce you one at a time, and you have five 
minutes to speak. The light that you see in front of you is 
going to start on green. When you have one minute left it is 
going to turn yellow, and when you are out of time, it is going 
to turn red, which means sum up, but I will be lenient.
    I thank you all for being here because you do have other 
places you could be a this point, but this is an important 
enough issue to you that you made the trip, and we do want to 
thank each and every one of you for offering your expertise to 
the Committee, and we look forward to hearing from you.
    Now, Ms. Pamela Hendrickson is Chief Operating Officer of 
the Riverside Company, a private equity firm with headquarters 
in Cleveland and New York, which focuses on investments in 
small and middle market companies.
    Ms. Hendrickson.

 STATEMENT OF PAMELA HENDRICKSON, CHIEF OPERATING OFFICER, THE 
                       RIVERSIDE COMPANY

    Ms. Hendrickson. Thank you.
    Chairman Altmire, Ranking Member Fallin, thank you very 
much for having me this morning.
    As you said, I am Pam Hendrickson, Chief Operating Officer 
of the Riverside Company. We're a private equity firm that has 
spent the last 21 years investing in small companies around the 
world. Recent newspaper headlines might have some people 
believing that the private equity industry is made up of former 
investment bankers who used black box financing to acquire 
companies in big cities and then vaporized the assets and the 
employees. That is not what we do.
    We have invested $1.8 billion in 211 companies. We work 
with them for about five years, and when we sell them, 
typically their earnings have risen by 100 percent. Today I 
want to talk for a few minutes about how we do that.
    Unlike venture, which helps companies in the start-up phase 
of their life cycle, we help companies that are in a bit of a 
later stage. We have three mechanisms by which we create value.
    First, we increase the earnings of the companies we buy.
    Second, we earn a bigger multiple upon sale because we have 
built a much stronger company.
    And, third, on occasion we restructure the balance sheet.
    I am happy to tell you only eight percent of our gains have 
come from restructuring the balance sheet. For us it is all 
about growth.
    About 60 percent of the companies we buy are family owned 
businesses in small communities, like Oneida, New York or 
Paris, Kentucky. The founders and owners typically have most of 
their net worth tied up in these companies, and when they 
decide to sell their business, it is generally because they are 
seeking liquidity for retirement or to secure the financial 
future of their families.
    For example, we purchased CPI, a training company based in 
Brookfield, Wisconsin. The company was for sale because the 
owner had been diagnosed with a terminal disease and wanted to 
insure that his employees would be safe and his business would 
be ongoing.
    We quickly evaluated this opportunity and were able to 
close this transaction in 30 days. Today, through the addition 
of new programs, some international growth and some modest 
price increases, CPI has increased its sales by 25 percent, and 
the employees are prospering.
    On other occasions we work with young management teams that 
need both capital and additional expertise to grow, one in 
Washington, Pennsylvania, in fact, and sometimes we actually 
create a small business from what we affectionately call a 
corporate orphan, a non-core division of a large company that 
has suffered due to lack of capital and attention.
    Such was the case with Just Right Manufacturing in Mattoon, 
Illinois. Just Right was a division of Federal Signal, a 
manufacturer of safety products that help prevent catastrophic 
industrial accidents, and it really needed attention. We bought 
it, founded a top management team, and realigned its pricing 
strategy.
    Since our acquisition, the company has grown earnings 40 
percent and kept a lot of jobs in Mattoon.
    We help our companies in many ways other than simply 
providing capital. First, we give them access to our strong 
lender network. In 21 years, our senior lenders have lost money 
only once. So they like working with us. Our debt ratios are 
low, 2.9 times operating earnings versus the industry average 
of four and a half times.
    Second, we pool the purchasing power of our 50 U.S. 
companies so that they get the benefit of being part of 
something bigger. For example, on a pooled basis, our company 
spent $25 million with FedEx so that each of them gets treated 
like Hewlett Packard.
    Third, we have done a tremendous amount of work helping our 
companies manage their health care benefit costs. Through our 
programs we have held per employee per year cost nearly flat 
since 2006 at $8,000. The industry average is 36 percent 
increase.
    Recently we actually got a nice compliment from the United 
Steel Workers who were impressed that we were able to continue 
offering such great benefits.
    We also improve financial controls and bring in strong 
outside directors. As the PE industry continues to contribute 
increasing percentages of GDP, it is understandably gaining the 
attention of the regulatory bodies just across the aisle, I 
think. One area of particular concern to us are the new FASB 
157 or mark to market regulations. While we fully support 
marking to market and have always done so, the new regulations 
require that we use outside resources and a more public company 
approach. Last year we did a transaction every eight days. So 
we are constantly in the market, and we really know how to 
value companies.
    Unfortunately, we are now being forced to value companies 
during our hold period in a way that is different from how we 
value them ourselves when we buy and sell them. In addition, 
these regulations are costing our investors an additional 
$500,000 per year due to the additional time required from our 
auditors and outside consultants.
    Getting the U.S. economy out of the doldrums will 
undoubtedly be driven by the growth of small business, but we 
need debt, and despite our great lending relationships, the 
debt markets remain tight. We have wondered whether there might 
be an opportunity for some form of public-private partnership 
through which the SBA could provide some debt at the fund 
level.
    We have a lot of skin in this game, and the future of our 
firm is based purely on our track record. Just as companies 
compete for capital so we compete for investor capital. It's a 
very democratic process, not based on status or where we went 
to school, but based purely on our performance. So we have to 
grow our companies.
    Thank you.
    [The prepared statement of Ms. Hendrickson is included in 
the appendix at page 24.]
    Chairman Altmire. Thank you, Ms. Hendrickson.
    Now we will turn to Sherrill Neff. Mr. Neff is founding 
partner of Quaker Bio Ventures, a venture capital firm located 
in Philadelphia that invests primarily in life science 
companies with outstanding growth potential. Mr. Neff is 
testifying today on behalf of the National Venture Capital 
Association, the leading trade association that represents the 
U.S. venture capital industry with over 450 member firms.
    Welcome, Mr. Neff.

 STATEMENT OF P. SHERRILL NEFF, QUAKER BIO VENTURES, ON BEHALF 
            OF NATIONAL VENTURE CAPITAL ASSOCIATION

    Mr. Neff. Thank you, Mr. Chairman, Ranking Member Fallin, 
Mr. Ellsworth.
    I am a founding partner of Quaker BioVentures, which is a 
Philadelphia based venture capital firm investing only in life 
sciences companies with outstanding growth potential across all 
stages of development. We raise money from institutional 
investors of many types and invest those funds for the long 
term in innovative start-up companies. All of our funding and 
efforts go toward company growth, not financial reengineering.
    In most cases, venture capital is the only funding source 
for these companies at their stage of development, as the risks 
are way too high for traditional bank and other financing. 
Venture capital is a relatively small asset class, and it 
should probably stay that way, with approximately $28 billion, 
as Representative Fallin mentioned, invested on an annual basis 
over a fairly consistent period of time, with a notable blip in 
the early part of the 2000-2001 period.
    Last year that capital went into 3,800 different companies 
in the United States. Despite our size, our industry has 
created exponential value for that investment dollar. Venture 
backed companies account for more than 10.4 million United 
States jobs and $2.3 trillion in U.S. revenues, or 18 percent 
of the entire GDP. And we estimate that one out of three 
Americans have benefited personally and directly from venture 
backed medical innovation.
    Organ regeneration and development of drug therapies for 
macular degeneration are just two of many, many innovations 
represented in our portfolio of over 30 companies, which also 
contribute thousands of jobs to the regions in which we invest.
    While the venture capital community is not in need of 
rescue by any means and, in fact, has money available to invest 
in emerging growth companies, there are critical ways in which 
policy makers can support our efforts to continue to build 
innovative American companies.
    First, we support maintaining capital gains tax treatment 
for the carried interest portion of our investment return. This 
tax policy has proven to motivate venture capitalists to make 
long-term investments in creating new companies and jobs that 
did not exist before. Encouraging this investment behavior is 
exactly what Congress intended when it enacted capital gains 
tax legislation many, many years ago.
    It is critical that VCs continue to be rewarded in a manner 
commensurate with the huge risks we take. Otherwise our risk-
reward equilibrium will be thrown off, and even highly 
promising companies will not get funded because we cannot 
justify the risk.
    The President's budget has a provision to change the 
carried interest tax rate to ordinary income effectively 
tripling taxes of those most responsible for new company 
creation. At a time when our country needs to create jobs, such 
a change is counterproductive for economic growth. We ask that 
you look very carefully at each industry impacted by the change 
in the carried interest tax rate and enact policies that are 
fair but continue to promote long-term investment rather than 
to choke it.
    Next, we need government funding for basic research to fuel 
the innovation pipeline from which we draw to create our 
companies. A great example in our portfolio is a company based 
in Connecticut called Optherion, developing truly novel 
therapies for macular degeneration.
    Optherion was created from NIH funded technologies in four 
universities, the University of Iowa, the University of 
Pittsburgh Medical Center, Rockefeller University, and Yale 
University. We have combined all of these technologies together 
with an experienced management team, have raised over $30 
million in venture capital funding, and the company's drugs 
will begin human testing later this year.
    We applaud the allocation of a significant chunk of 
stimulus dollars to continuing basic scientific research in the 
universities' academic centers.
    In other areas, such as the SBIR grant program, venture 
backed companies have been unfairly excluded, in our opinion, 
from applying as there is a misconception that venture backed 
companies are not small businesses. This, as you know, is not 
true. Venture backed companies are often without revenues and 
with employee counts in the single digits. Without federal 
funding these companies often cannot move forward with basic 
research projects.
    We commend this Committee for passing legislation last year 
addressing this issue and hope to permanently resolve this 
issue this year.
    Third, we ask that the government look at the many 
instances where regulation has created additional burdens and 
uncertainties that threaten the growth of small companies. For 
instance, many companies are struggling with the cost of 
Sarbanes-Oxley compliance, which continues to place a very 
expensive burden on small entities.
    In our sector, the life sciences sector, regulatory 
uncertainty at the FDA continues to have an adverse impact on 
our ability to make investment decisions. When the rules are 
changing, you do not know what you are investing in, and it is 
very, very difficult to decide that without clarity.
    Lastly, the government can protect innovators better 
through an approach to patent reform that recognizes the 
disproportionate burden for smaller companies when defending 
against patent infringement. This protection in our opinion 
should include a post grant review process that is limited to a 
very short period, 12 months, so that small companies are not 
subject to endless patent challenges by large corporations.
    It also involves meaningful infringement penalties in 
situations so that we can really deter large companies from 
infringement that today is not adequately costly to them.
    Another area of protection that is important to us is the 
protection of companies that have invested millions of dollars, 
decades of development, bringing novel biologic therapeutics to 
market. If generic alternatives are allowed to enter the market 
shortly after the original is made available, the original 
innovators will not be able to recoup their investments. No 
investor will be able to fund them profitably, and innovation 
will stop or slow.
    The venture capital industry remains committed to investing 
in the most promising innovative small businesses our country 
has to offer, but we need to maintain an environment that 
allows these companies to thrive. As Congress considers 
policies that impact start-ups and the start-up community, we 
appreciate the opportunity to offer an ongoing voice that 
supports the viability and growth of these entities.
    Thank you.
    [The prepared statement of Mr. Neff is included in the 
appendix at page 36.]
    Chairman Altmire. Thank you, Mr. Neff.
    And to introduce the next witness, Mr. Walker, I will turn 
it over to Ranking Member Fallin.
    Ms. Fallin. Thank you, Mr. Chairman.
    We are very pleased to have a fellow Oklahoman up here 
today, Mr. Tom Walker who is the President and Chief Executive 
Officer of I2e. He brings tremendous energy and leadership to 
the creation of commercialization and entrepreneur development 
initiatives in Oklahoma's advanced technology sector.
    And Tom is a founding member of the Board of Directors of 
the National Angel Capital Association, serves on the board of 
the Oklahoma Biosciences Association and the Oklahoma 
Manufacturing Alliance, and has been a great leader in our 
state in venture capitalism.
    So, Mr. Walker, we are glad to have you here.

 STATEMENT OF TOM WALKER, PRESIDENT AND CEO, I2e, ON BEHALF OF 
              BIOTECHNOLOGY INDUSTRY ORGANIZATION

    Mr. Walker. Thank you. It is my privilege, Chairman 
Altmire, Ranking Member Fallin, Mr. Ellsworth.
    Thank you for this opportunity to testify today regarding 
the difficulties facing the venture capital and angel capital 
industries, and in particular, how it is impacting the 
biotechnology industry.
    My name is Tom Walker. I2e is a nonprofit corporation in 
Oklahoma that assists advanced technology companies, and we 
provide specialized commercialization services and access to 
risk capital in the earliest stages of a company's life, 
especially to those companies facing the funding gap that we 
commonly refer to as the valley of death. We accomplish our 
goals through the assistance of the State of Oklahoma actually, 
through OCAST. We have invested in over 100 start-up companies 
over the past ten years.
    However, today I am testifying on behalf of the 
Biotechnology Industry Organization, an organization 
representing more than 1,200 biotechnology companies, academic 
institutions, state biotechnology centers, and related 
organizations involved in the research and development of 
health care, agriculture, industrial and environmental 
biotechnology products. The overwhelming majority of biomember 
companies are small, early stage, research and development 
oriented companies. America's leadership position in this 
industry today is really threatened by the economic environment 
that we find ourselves in.
    The total capital raised by the biotech industry has fallen 
56 percent in the last year. Almost half of all public U.S. 
biotech companies have less than one year of cash remaining on 
hand. The amount raised through initial public offerings has 
fallen by 97 percent, from $1.9 billion to $5.8 million. The 
slowdown in private investments has been dramatic as well, as 
venture capital investors find they can no longer afford the 
high risk that is characteristic of investment in biotech.
    So I will briefly mention a few approaches to sustain 
emerging biotechnology companies in this time of need. First, 
allow small companies access to the NIH Recovery Act funds. As 
part of the Economic Recovery Act, Congress appropriated $8.2 
billion to the National Institutes of Health. These dollars 
will largely be used for basic research and must be spent 
within the next two years.
    Historically, NIH grants go to research institutions. So if 
we could just allow a small percentage of those funds, the 
Recovery Act funds, to go to small businesses, it would have a 
tremendous impact in this time of need in developing new 
technologies and therapeutics, things of that nature in the 
biotech industry.
    Second, we should enact new tax incentives for investment 
in biotechnology. One thing in particular, President Obama's 
budget proposed to eliminate capital gains taxes on investments 
in start-up companies. Yet details on this proposal have not 
been forthcoming. So I would urge members of Congress to work 
with the Obama administration to refine the proposal in order 
to make it as useful as possible for small, capital intensive 
companies greatly in need of new funds.
    Third, I would like to bring up amending the SBIR 
eligibility rules related to venture capital. This has been a 
highly successful program for injecting government dollars into 
small, innovative firms. The SBIR program currently excludes 
companies that receive a majority of their funds from venture 
capital investors. So enactment of the SBIR reauthorization and 
considering changes to allow for greater participation of 
companies that receive VC funds is more important than ever in 
this current economic climate.
    Fourth, I would like to consider creating a funding 
mechanism for high growth companies, a new funding mechanism, 
perhaps a grant, even a loan program that is really targeted to 
high tech companies, really targeting a specific stage even for 
those companies that are unable to raise funds should be 
considered. This program need not be permanent or add to the 
deficit, especially if structured properly. I think there are 
terrific best practice examples at the state levels that we 
could look at to really model a program for the SBA.
    A private investors wait on the sidelines for the financial 
markets to recover, government can help to fill the funding gap 
through narrowly targeted measures. I would suggest that we are 
far better off spending a little money today rather than seeing 
a whole generation of America's most cutting edge, science 
based industries decimated by the current capital environment.
    Thank you.
    [The prepared statement of Mr. Walker is included in the 
appendix at page 48.]
    Chairman Altmire. Thank you, Mr. Walker.
    We turn to Catherine Mott. Catherine Mott is the founder 
and CEO of BlueTree Capital Group, an organization located in 
Wexford, PA, that provides the professional staff to facilitate 
and manage the Allied Angels organization.
    In 2003, Catherine Mott started Western Pennsylvania's 
first business model angel network, BlueTree Allied Angels.
    Welcome, Ms. Mott.

   STATEMENT OF CATHERINE MOTT, FOUNDER AND CEO OF BlueTREE 
                       CAPITAL GROUP, LLC

    Ms. Mott. Thank you, Chairman Altmire and Ranking Member 
Fallin and all of the members of the council.
    I took the liberty to title my discussion today 
``Entrepreneurs Can Lead Us out of the Crisis.'' Before I 
elaborate on the title, please allow me to explain my company's 
BlueTree Capital Group and BlueTree Allied Angels.
    BlueTree Capital Group was created as an entity to 
purposefully aggregate angel investors to invest in early stage 
companies. We are a member of the Angel Capital Association, 
our professional support organization whose testimony you will 
hear from John May today. Because BlueTree is located in 
Pittsburgh, PA, we are fortunate to be strengthened by three 
outstanding universities that serve as very fertile ground for 
a multiple spin-out of ideas into companies.
    Please do not confuse us with Silicon Valley, Boston or San 
Diego. We are Midwest town with a very small but vital venture 
capital presence. The companies created in Pittsburgh are less 
likely to be funded by VCs or even by super rich angles like 
Marc Andreessen, who is the founder of Netscape, but instead 
they are funded on the backs of hard working professionals 
whose average annual salary is between 200 and $400,000.
    I tell you this because most angel investors look like us, 
not like Marc Andreessen, whose multiple millions lead people 
to think that they can invest in start-ups under any 
circumstance and in any economic climate.
    The average angel investor in the U.S. is at the lower end 
of the wealth spectrum and is not located in Silicon Valley or 
Boston. This is an important distinction for the Committee. The 
current economic crisis has crippled the average angel 
investor's ability to invest because their net worth has 
dropped to a point where they no longer can place marginal 
capital at risk on start-up companies.
    At BlueTree Allied Angels, since September 2008, two-thirds 
of our 53 investors have ceased investing in early stage 
companies. Why should this matter? Well, it matters because 
they fund companies that banks or other sources of capital will 
not or cannot fund. It matters because these investors are the 
mechanism that fills the funding gap between friends, family, 
and institutional financing. Without this mechanism, there 
would be no Alcoa today. It matters because entrepreneurs are 
the fertile soil for job growth and recovery. It matters 
because funding entrepreneurs can lead us out of the economic 
crisis.
    This recessionary crisis is more than a downturn caused by 
bad lending practices and Wall Street avarice. The greater 
underlying dynamic is at work and it has been at work for some 
time. A fundamental change is taking place in the global 
marketplace. It is a rapidly changing, technology driven global 
economy.
    The United States, the nation that brought the world 
electricity, the telephone, radio, TV, and the personal 
computer, could be losing the race for its own history. China, 
Germany and India and other countries are aggressively 
encouraging and setting the stage for an economy that will 
flourish in this new technology driven age.
    For example, contrast the U.S. capital gains tax rate to 
the zero percent capital rate and Hong Kong, Singapore, and 
even Germany. The current U.S. economy and its tax policies are 
not built for this rapidly changing, technology driven new 
world.
    In addition to fixing our U.S. debt and credit 
infrastructure, the U.S. needs a healthy equity capital 
infrastructure that can rapidly respond to the demands of a new 
age and the new competitive forces of the world. The real 
danger for the U.S. lies in merely fixing the old economy and 
ignoring the new economy.
    Only entrepreneurs have the flexibility, the freedom and 
the risk everything ambition to find the path back to 
prosperity, and it is the passion and commitment of angel 
investors funding these entrepreneurs that makes it possible. 
Yes, passion and commitment; about half of the angel investors 
provide more than money to entrepreneurs. They provide 
experience, guidance, business consulting, and contacts from 
their Rolodex.
    The passion and commitment also exist in tolerating 
investment loss. Like our venture capital friends, in an 
average angel investor portfolio of 18 companies, the angel 
investor will see five of these companies go bankrupt and only 
one or two will deliver an outstanding return. It might be 
better explained metaphorically. Five will strike out, ten will 
make it to first or second base and return a moderate amount of 
capital to investors, and one and maybe two will be a Hank 
Aaron home run.
    The hidden cost of this economic crisis is that angels have 
lost their wings. They are retracting as a result of the weak 
market and a stymied economy. I greatly appreciate the 
opportunity to speak with you today because as policy makers, 
you can make a difference by setting a tone with legislative 
initiatives that can help reverse the downward spiral of 
investing in business building and job growth.
    Regardless of where we fall in the political spectrum, all 
of us in this room have to agree that innovation and building 
businesses are imperative elements of American economic 
strength. There have been recent policy initiatives to restore 
our national communications and travel infrastructure, but that 
infrastructure has no value unless we restore the financial 
infrastructure for building sustainable companies. Nice, new 
bridges do not mean a thing unless we are creating sustainable 
jobs whose tax base can pay for the nice, new bridges.
    If capital does not start flowing soon to start-ups and 
early stage businesses in this country, we will be faced with 
years of lost innovation. We will lose the good paying jobs and 
the healthy tax base to other parts of the world that are 
aggressively facilitating innovation and start-up companies. I 
hope you will consider the six suggestions that are in my brief 
that I have submitted to you, and I appreciate this opportunity 
to speak.
    Thank you.
    [The prepared statement of Ms. Mott is included in the 
appendix at page 54.]
    Chairman Altmire. Thank you, Ms. Mott.
    We will hear next from Mr. John May. He is the founder and 
managing partner of New Vantage Group, a leading angel 
investment firm that mobilizes private equity into early stage 
companies and provides advisory services to both funds and 
private investors. Mr. May is testifying today on behalf of the 
Angel Capital Association, the leading organization of angel 
groups with over 165 member groups and another 22 affiliate 
organizations throughout North America.
    Thank you for being here, Mr. May.

 STATEMENT OF JOHN MAY, NEW VANTAGE GROUP, ON BEHALF OF ANGEL 
                      CAPITAL ASSOCIATION

    Mr. May. Thank you, Chairman Altmire, Ranking Member Fallin 
and Mr. Ellsworth.
    It is great to be here and to be included in this 
discussion. I actually have enjoyed organizing angels, high net 
worth individuals in this Washington, D.C. area, and it 
occurred to me I should extend an invitation. Any time you want 
to see the way we operate, come on and let us know and you will 
come to attend a breakfast meeting with us. I will not charge 
you for the first meeting, and we really would enjoy sharing 
with you this new phenomena of angel groups as opposed to sole 
practitioners.
    The Angel Capital Association is only six, seven years old. 
It came out of a great relationship with the Kauffman 
Foundation in Kansas City, and it really is the organization 
which is trying to professionalize and to learn best practices 
on how to grow early stage companies with the time and money of 
high net worth individuals, as opposed to institutional money, 
to round out our community.
    As you know, start-up companies and high growth companies 
need capital beyond the customer, beyond bank financing, and 
what is a uniquely American phenomenon over the centuries has 
been individuals investing their own after tax dollars in 
strangers' opportunities to try to get high growth companies to 
provide jobs and economic development in their region. Ninety 
percent of us invest within one or two hour drive time of our 
own community, and we look for long-term capital gain, and we 
will touch on that in the testimony.
    We have been organizing the development of these angel 
groups. We have realized in the little bit of research that is 
done we are probably at about the same size in terms of capital 
deployed as the institutional venture capital industry, about 
25 to $30 billion a year, but our groups tend to do 50,000 or 
100,000 transactions a year in all 50 states, whereas as you 
know, the traditional institutional venture capitalists are 
really looking for the cream of the crop and heavily are 
dominated by larger transactions into a smaller number of high 
growth companies.
    What we are trying to do is to develop the local high net 
worth individuals doing it (investing) to develop our own local 
economy. We have a real problem in today's economy because the 
engine of angels' activity is their own personal net worth, and 
that is down, as you know, in the economy. So we mention that 
the number of angel investors is going to be reduced by this 
economic crisis. Their propensity to spend their wealth on high 
risk, early stage ventures is down right now. That needs to be 
reinvigorated, and just as entrepreneurs are finding people who 
have left and been laid off are starting businesses, and 
entrepreneurs are looking for capital, the banks, and 
institutional venture capitalists and so forth are not as 
robust as they were.
    So what can we suggest? So in the testimony we just suggest 
five areas that we would like to suggest that might be 
appropriate for governmental attack, and we can hopefully have 
a dialogue and talk about these in a few minutes.
    One obviously is tax policy. Low long-term capital gains is 
the underlying commitment that we have to spend our time and 
our money for three, five, seven years. Obviously the most 
important thing would be to not have that highly taxed when it 
comes out. So angels are very dependent upon a 15 percent or 
lower capital gains tax rate.
    Second, the idea of many states, 22 states in the United 
States, and many foreign countries have tax credits that are 
applied to the investment that you make in a qualified company 
so that you are incentivized and can diversify your portfolio 
further because you get a 20, 25 percent tax credit for taking 
this risky investment. It has been done at the state level 
successfully in the United States, including some of the states 
represented here. We would recommend that you look at not only 
the capital gains tax rate, but the pros and cons.
    Maryland, for example, has a 50 percent tax credit for an 
investment in a biotechnology company, but it only has a 
certain amount of capital, six million a year, and they sit in 
line on July 1st to be able to have the company apply for its 
position in that pool of six million, and it is exhausted 
usually in the first half of the year. So there is something 
here that incentivizes individuals.
    Next, education training and awareness. Think of just a few 
dollars were used at the university level, at our nonprofit, 
the Angel Capital Education Foundation to further in all 50 
states the development of angels, the encouragement of 
entrepreneurs to approach high net worth individuals and have 
less mystery and the whole idea of how to approach an angel, 
how angels should develop their risk profile of making these 
investments.
    I am the lead instructor in one such Power of Angel 
Investing Seminar, and you should just see the light go on when 
people are sitting there in Charleston, South Carolina, in 
Boise, in Chicago, and realize that you can do this with some 
help.
    Third, we really do think we should keep angel investing at 
a private level. We do not see any need for a governmental 
office or an SBA program to highlight angel education activity, 
Website development. We think that is best done at the private 
level. It is tax policy and some other things that might need 
governmental hand.
    Fourth, accredited investor standards have been very 
constant over the last two decades. We would prefer not to see 
any change in the sophistication standard that is used by the 
SEC to allow for angels and entrepreneurs to deal with high net 
worth individuals as accredited investors, the million dollars 
of net worth, for example.
    There has been some discussion of indexing that or changing 
that. That would be detrimental to entrepreneurs because then 
the sophisticated angels would not necessarily have that 
position because it was raised.
    And last, there is the idea of leveraging private equity, 
and similar to Tom's discussion, we would urge you to think 
about a loan program or a co-investment program similar to 
Scotland and some of the other countries of the world where if 
an angel or an angel group makes a commitment, does the due 
diligence and has a relationship with an entrepreneur and takes 
risk capital and makes the investment, the idea would be that 
this loan program or a federal program would match that to some 
degree and then would make the government entity an investor in 
these companies, but would not need any bureaucracy, would not 
need any administration. It would follow an angel group that 
would make the investment, and it would increase the money that 
was available to entrepreneurs.
    I have gone on too long. I apologize, but I do want to 
suggest that there is a lot of meat here that we would love to 
have further discussion with you afterwards, and we are always 
available at angelcapitaleducation.org to answer any questions 
that you might have.
    [The prepared statement of Mr. May is included in the 
appendix at page 59.]
    Chairman Altmire. Thank you, Mr. May.
    Finally we will hear from Mr. Patrick Dalton. He is the 
President and Chief Executive Officer of Apollo Investment, a 
leading provider of investment capital for small, middle market 
companies generating both current income and capital 
appreciation through debt and equity investments.
    Welcome, Mr. Dalton.

    STATEMENT OF PATRICK DALTON, PRESIDENT AND COO, APOLLO 
                     INVESTMENT CORPORATION

    Mr. Dalton. Thank you, Chairman Altmire, Ranking Member 
Fallin, Mr. Ellsworth.
    I am very pleased to be here today. My name is Patrick 
Dalton. I am the President and Chief Operating Officer of 
Apollo Investment Corporation, an SEC regulated business 
development company commonly known as a BDC. For five years 
since our IPO, Apollo Investment Corporation has invested over 
five and half billion dollars in 124 small and middle market 
companies across the U.S., and today we have up to $700 million 
of available capital on our balance sheet.
    As successful as our company and our industry have been, I 
am here today to let Congress know that the mission that this 
body gave to BDCs 29 years ago to provide much needed capital 
to small and mid- size companies is in danger unless prudent 
policy steps are taken now.
    I am not here to ask for money. Far from it, I am here to 
ask for some common sense policy help so that we can use the 
money that we already have to originate new loans and to 
support the very companies that this Committee feels so 
strongly about.
    But first, the good news. We estimate that the nation's 
BDCs currently have a combined loan- investment portfolio of 
over $30 billion that provides capital to over 1,400 small and 
middle market businesses. These loans are the life blood of 
these Main Street businesses that support over 1.2 million U.S. 
jobs. In 2007, we estimate that the BDCs provided approximately 
50 percent of all the junior debt capital loans, known as 
mezzanine loans to small and mid-size businesses throughout the 
U.S.
    As many of you know, Congress created the BDCs in 1980 
under amendments to the Investment Company Act of 1940, in 
direct response to the crisis in the capital markets that 
threatened small businesses in the late 1970s. Today we are in 
what many believe is a once in a century recession. Small and 
middle market businesses have once again been abandoned by the 
traditional sources of capital.
    BDCs remain among only a few investment vehicles that are 
continuously dedicated to lending to small businesses. Our 
industry is lending in excess of $30 billion. None of us wants 
to see capital of that magnitude withdrawn from or otherwise 
unavailable to small and middle markets.
    It is our strong belief that BDCs occupy a unique 
regulatory space. Like banks, we originate, restructure, and we 
make loans directly to companies with the intention of holding 
most of these loans to maturity. However, unlike banks, we are 
much less levered, with a maximum leverage ratio of debt to 
equity of a mere one to one.
    Further, we are required by statute to invest at least 70 
percent of our capital in small and middle market U.S. 
businesses, and while we make similar discrete, hold to 
maturity loans as banks, BDCs are obligated to mark to market 
100 percent of our loans, while the banks only mark to market a 
minority of their loans.
    We are regulated by the same division of the SEC as mutual 
funds, but we are not a mutual fund. We do not trade liquid 
securities. Instead, we make individualized loans.
    BDCs have always used fair value principles to value our 
portfolio. Prior to the implementation of FAS-157 in its 
interpretive guidance, the industry used fair value 
measurements based upon underlying credit fundamentals, that 
is, the collectability of interest and principal in the pricing 
of new mezzanine loans.
    Unfortunately, we have been forced by changes in the 
accounting rules in order to practice to fix what was not 
broken. The accounting community now requires that our illiquid 
assets be valued as if they were trading assets being sold into 
a hypothetical market, too often drawn from a series of 
distressed asset sales or other illiquid assets that are not at 
all comparable to our individualized performing loans. We 
believe that this practice has caused artificial asset value 
write-downs for the BDCs without meaningful regard to the 
credit quality of our underlying assets and has misled 
investors.
    And most important to the mission of this Committee, the 
same accounting asymmetry results in many fewer loans and 
perhaps the succession of all origination activities to the 
small business community by the BDCs. Every BDC finds itself 
hoarding cash rather than making loans so that they will not 
trip their statutory one- to-one asset coverage test that I 
mentioned earlier.
    Apollo Investment Corporation I am very pleased to state 
has recently reported that we are in compliance with all of our 
covenants. Yet we still must be cautious about using any of our 
$700 million of available capital toward making new loans. We 
have, therefore, voluntarily chosen to curtail new lending 
activities until such a time that there is a resolution to this 
issue. This means that while we have the ability and the desire 
to lend, we are unable to do so because of the policy and 
interpretive guidance of FAS- 157.
    As many of you know, the leadership of this very Committee 
has written the SEC asking that regulatory reform be taken 
quickly before further deterioration occurs, but as of today, 
we are still in need of your help. We have made three 
suggestions to the Commission, and it is to those three 
suggestions that I want to return.
    First and foremost, we ask that the BDCs be expressly 
included in the work that the FASB and the SEC have been tasked 
with by the House Financial Services Committee to respond with 
improvements to mark to market accounting. If we are able to 
offer true value accounting for a hold to maturity loans, we 
could and we would resume lending.
    Second, we ask that BDCs be given temporary authority to 
raise preferred stock and treat those shares as equity rather 
than debt.
    And, third, we also ask you for temporary relaxation of the 
asset coverage limits.
    In closing, let me end where I began. I am not here to ask 
for taxpayer money. I am not asking for a bailout of an 
industry that made bad decisions. I am here solely to ask for 
your help in returning us to the public purposes for which you, 
the Congress, created BDCs 29 years ago. It would, indeed, be a 
shame if common sense did not prevail.
    Thank you.
    [The prepared statement of Mr. Dalton is included in the 
appendix at page 67.]
    Chairman Altmire. Thank you, Mr. Dalton.
    For questions we will go back and forth, and I wanted to 
open up by asking Mr. Neff a question.
    In your testimony you talked about the large investments 
made by a small group of venture capitalists. Can you further 
explain why venture capital is so important to the economy in 
context with how what you do is different from the big buyout 
groups and the hedge funds?
    Mr. Neff. That is a lot to chew, but I will give it a try. 
When we come upon an investment that interests us, it typically 
has gotten either a terrific group of management around it if 
it is a raw start-up, and the idea is so compelling that we 
invest a lot of time and a lot of consulting help and a lot of 
effort in trying to understand the opportunity.
    And then when we do decide to try to put together a group 
of venture capitalists to actually form a syndicate to make an 
investment, at that point we give birth to that company or if 
it is a company that has been funded through the angel networks 
or through other programs, we then bring another round of 
investment intensity to the company and help to propel the next 
stage of growth.
    The important point is that our companies are receiving our 
capital in order to invest in research and development or in 
order to invest in job growth, and in order to invest in 
economic growth. These companies were not generally using any 
of our capital to pay off other shareholders, to buy positions 
of ownership from other shareholders, to repay debt and those 
kind of things that are shuffling the financial deck, if you 
will, but not being invested in core economic growth.
    So I think that venture can be contrasted from the buyout 
firms in that regard. Now, I do not mean to contrast ourselves 
unnecessarily from firms like Pam's because they invest so much 
in growth equity at a slightly later stage than we do, but I 
think that there is definitely from a policy perspective; in my 
mind, there is a real difference between firms who primarily 
invest in job growth and in fueling company growth when 
compared with firms that generally invest in highly leveraged 
transactions and a reshuffling of the financial deck.
    Chairman Altmire. Thank you.
    And I am going to ask another question, and then I am going 
to turn it over to Ms. Fallin. For this question I would like 
all of your opinions who have an interest in answering. We will 
start with Mr. Neff since we are on him.
    And in your testimony in particular you focused upon the 
President's proposal to apply no capital gains tax for 
investments for small businesses, and from your perspective in 
the investment of the entire panel, how broadly should this tax 
be applied in order to maximize its benefits to the small 
business community?
    Mr. Neff. I think there will need to be a lot of discussion 
in terms of what the parameters of its application are, but I 
think that if we can adequately define what a small business is 
and we can adequately define the purpose of the proceeds of the 
investment so that it creates jobs, so that it creates funding 
for research and development and early commercialization 
activities, I think that that is where that tax incentive ought 
to be focused. If it is focused instead on things that are less 
productive to economic growth, then that is where it ought to 
be cut off.
    Mr. May. At the Angel Capital Association conference summit 
that we had last year, about 380 credited investors 
representing the different groups, all of us were there, and 
this is herding cats. These are all very interesting people, 
but they all have a lot of opinions.
    The one common public policy position we came up with that 
everybody agreed on was low or no long-term capital gains, and 
we would be very happy with the venture capital standard or 
whatever.
    It is time that makes a difference to us. So whether you 
make it two years, three years, five years, to have zero 
capital gain, that is the key thing that will keep angels, we 
believe, continuing to invest in start-ups.
    Mr. Walker. I would just echo the other comments that were 
made. It is a definitional issue on what is a start-up or a 
small business that really needs to be defined, and then the 
use of proceeds and make sure that the infusion of capital is 
for economic development purposes.
    The time factor on the capital gains is really key to 
investors.
    Ms. Hendrickson. I agree with that. I think it is the time 
factor, and obviously private equity has been a little bit a 
the vortex of this in terms of the carried interest discussion, 
but you know, when you think about what we do, we are putting 
both our money and our sweat equity into a company that makes 
chimneys, and we are working with that company for five years. 
So if that is not a capital gain, I am not quite sure what is.
    Chairman Altmire. Ms. Mott.
    Ms. Mott. If I might add, it is more than the time frame 
element here at risk. We are competing with a zero percent 
capital gains rate in Hong Kong, Singapore, China, other parts 
of the world, and I do not think we can keep up with innovation 
and funding innovation at the same rate if we cannot keep 
attracting capital, and I think it is a very critical point.
    Chairman Altmire. Mr. Dalton, do you have anything to add?
    Mr. Dalton. We are a lender. We have 90,000 public 
shareholders. So the conversation for our business is not 
relevant.
    However, I hear the panel's point, and I think it is a good 
one. Private equity in general does put a lot of sweat equity 
and does, you know, take a lot of time. We have the benefit of 
seeing small companies get to a later stage and become middle 
market companies. So I think that it is a worthwhile discussion 
that ought to be had and not necessarily carving out specific 
groups.
    Chairman Altmire. Thank you.
    We are going to have votes on the floor momentarily. So 
what we will do is just keep asking you questions until they 
call those votes and then we will adjourn.
    So I will turn it over to Ms. Fallin.
    Ms. Fallin. Thank you, Mr. Chair.
    I was listening to some of your comments about who the 
investors are and how much money they have and, in particular, 
I heard one comment that the angel investors are not the 
Silicon Valley type investors, but they are people who make 
between 200 and 400,000 a year and have some extra cash that 
they want to invest into venture capital. I think it was you, 
Ms. Mott, who said that, and that two-thirds of you investors 
now are strapped financially and many of you said they are 
sitting on the sidelines waiting to see what the rules are here 
in Washington and what the game is going to be.
    And in light of all of that, when we look at some of the 
budget proposals that we are seeing right now in Congress, 
especially as it relates to people who make over 250,000 a year 
and some possible tax increases on those people, it seems to 
fall in that 200 to $400,000 range that you are talking about 
for the angel investors.
    So how would the proposals that we are seeing here with the 
administration and Congress on raising taxes for those making 
over 250,000 affect the ability or maybe the availability of 
the angel investing funds from those people who are in that 
market range?
    and if I could ask all of you that.
    Ms. Mott. We have already been impacted dramatically. When 
you see your net worth decline by 46 percent, you know, it 
impacts the marginal income you have to invest, but let me put 
it this way. Typically what you can invest if you are doing 
good, practical portfolio management, five to ten percent of 
your investable assets is what you risk in this asset class. So 
whether it is hedge funds or anything, because it is considered 
a very risky asset class, suddenly you see that go down, and 
that five to ten percent you had you no longer have.
    And so additional taxes are only going to impact that 
marginal piece that you can invest at risk because it really is 
at risk. Five of these companies out of 18 you will lose. They 
will go bankrupt. You will lose your money on.
    Ms. Fallin. Okay. Mr. Walker.
    Mr. Walker. Thank you.
    I agree. We are taking essentially that money that would be 
available for start-up companies away. There are other things 
we could do. For example, Mr. May's testimony on a tax credit 
or incentive to those private investors who make targeted 
investments in emerging growth companies. So perhaps that is a 
catalyst to help offset this discussion.
    Ms. Fallin. Yes, sir. I like that idea.
    Mr. May.
    Mr. May. As I say, it is almost impossible to get three of 
us, much less, you know, 380 at a conference or 12,000 to agree 
on any one public policy area, but the key thing we find is 
that these are people who are dedicated to doing this. They 
love to recycle their funds and their time and give back to the 
community.
    So one of our concerns is that there are so few people that 
are very wealthy that ever do this. I mean, it is just amazing 
that it is in the blood of a lot of people and you are right. 
We need to have as much capital in their hands as possible 
because they know what to do with it and they take the risk of 
multiple portfolio companies, but we have not ever sort of come 
up with any one magic bullet, and so that is why we try to, as 
you say, explore a variety whether it is sidecar funds, whether 
it is encouraging the later stage money that will pick up when 
we run out of money, whether it is low capital gains. I just 
think all of the things you are exploring are important, and 
yes, anything that would reduce our amount of capital is not 
necessarily good, but that does not mean that they will spend 
it on angel investing unless that level playing field is also 
worked on.
    Ms. Fallin. Sir?
    Mr. Dalton. For our company and the BDCs in general, our 
investors are really Mom and Pops who invest to get the 
dividends, fixed income. So they are participating in private 
equity. So I think what is important is that, you know, they 
have transparency and the confidence and the appropriate sort 
of rules so that they can understand what we are investing in 
and where the credit worthiness of our portfolios are, yet the 
accounting issues are making that transparency challenging for 
us.
    So I do think that it is less of an issue about sort of the 
taxes at that level, but people are investing in BDCs as a way 
to get access to private equity, but also wanting to sort of 
get that current income, and because of the lack of 
transparency, the entire BDC stocks have had a downward spiral, 
and not because of book value but because the concern about 
tripping covenants based upon assets that move every day, based 
upon hypothetical markets, 100 percent of our portfolio.
    Yet we hold over 90 percent as an industry to maturity for 
the liabilities are fixed. So we have had to pull back our 
capital to protect against that when we should be lending our 
capital and have the desire to lend and available capital to 
the middle market and small companies.
    Ms. Fallin. Okay. Mr. Neff.
    Mr. Neff. Let me try to be very direct. There is no 
question that increased tax rates have an adverse impact on 
capital formation. I do not think I need to say anything more. 
Capital formation, whether it is institutional like I do or 
whether it is individual like some of these folks do, is very 
fragile and anything that increases uncertainty and anything 
that increases a feeling that you have less capital available 
to you has an adverse impact on the ability to pool that 
capital and deploy it effectively.
    Ms. Hendrickson. I agree with Mr. Neff. Most of our 
investors are institutional investors, university endowments, 
pension funds. So they are not directly impacted by that 
particular tax provision. They are mostly impacted, frankly, by 
the destruction in the equity markets and the fact that they 
have no liquidity at this point.
    Ms. Fallin. Mr. Chairman, if I can ask one more question if 
possible, because I know we have got to go vote, one of the 
things I am concerned about is we are talking about tax policy 
as we are hearing various hearings about bonus money and 
callbacks and retroactively taxing and things like that. Do you 
ever get concerned, as I do, that some of our U.S. investment 
money, some of our corporate money may go out of the country if 
we start increasing capital, increasing capital gains tax, 
increasing corporate tax I should say, increasing capital gains 
tax, and changing the rules all the time; that they may just 
take it to one of those foreign countries you were talking 
about that had zero capital gains tax?
    Mr. Dalton. Yes.
    Ms. Fallin. Okay. That is good.
    [Laughter.]
    Ms. Mott. You know, some of my colleagues are already in 
China. They are in Australia on the West Coast. So, yes, they 
are already looking.
    Mr. Walker. Yes, I think maybe another way to look at this 
again is we should be doing things that are catalysts for small 
business creation regardless of the industry, and the more we 
can quit changing the rules and keep a level playing field and 
provide some incentives as a catalyst to create companies is 
the way to go.
    Mr. Neff. I think what you have addressed has more of an 
impact on foreign capital flowing into the U.S. than it does on 
U.S. capital flowing outside of the U.S. because an individual 
U.S. citizen making an investment in Hong Kong will have U.S. 
taxes on that, not Hong Kong taxes on that.
    But the other way around is definitely true. If big pools 
of foreign capital, which traditionally do flow into this 
country, can get much lower tax rates outside of this country, 
they are not as likely to flow into this country.
    Ms. Hendrickson. I agree with Mr. Neff. That is the same 
issue for us.
    Ms. Fallin. Thank you, Mr. Chairman.
    Chairman Altmire. You are welcome. Thank you.
    I am going to try to squeeze one more in before they call 
this vote. It starts with a question that Ms. Mott brought up 
in her testimony, but again I'll open it up for the whole 
panel. She commented on the role that government can play in 
helping to educate potential angels and grow angel networks, 
and I was wondering if, in your opinions, does adequate support 
framework exist for the industry to take up new resources and 
implement these new education programs. So we will start with 
Ms. Mott.
    Ms. Mott. The framework exists in the Angel Capital 
Association and the Angel Capital Education Foundation, but I 
think additional funding is required to expand that reach. Like 
Mr. May, as a matter of fact, on Monday I will be in Austin, 
Texas teaching a course, an ACEF course, to angel investors for 
term sheets and due diligence, but I know we have very limited 
resources, and a lot of us do this out of the goodness of our 
heart, not because we get paid.
    But I can only imagine if the ACEF and the ACA could expand 
those courses to Web based courses. I think we could reach a 
greater number of people to learn about this asset class 
because it is very convoluted, and the more people who become 
comfortable with it, the more inclined they would be to engage 
in it. So, yes, support for the ACA and the ACF because I think 
the structure is already there in many ways and perhaps maybe 
Mr. May could elaborate on that.
    Mr. May. Well, I was just going to say whether it is 
through the trade association, the nonprofit, or whether it is 
through entrepreneurship centers at universities, the greatest 
upswelling over the last several years in a lot of the graduate 
programs have been in the entrepreneurship centers and programs 
all over the United States, and this is a subcomponent of that, 
is access to capital. We help train people to be entrepreneurs 
and then we do not adequately show them how to write a business 
plan, negotiate a term sheet, and understand valuation at this 
stage because it is less transparent than the later public 
companies.
    So we definitely would recommend that tax policy is great 
in some of these other areas, but anything that could be done 
to increase public awareness and education would be 
significant.
    Mr. Walker. A key point to that question is as we talk 
about the capital gap widening in the country and a lot of 
areas in the U.S. are smaller population centers, but we are 
still growing biotech companies and emerging growth companies, 
and anything we can do to help organize those early stage 
capital resources just helps the system start up more 
entrepreneurial based ventures.
    Chairman Altmire. Perfect timing.
    [Laughter.]
    Chairman Altmire. I ask unanimous consent that members will 
have five days to submit statements and supporting materials 
for the record. Without objection, so ordered.
    Thank you all very much for being here. This was very 
instructive. This is going to help the Committee as we move 
forward and address these issues. We really appreciate your 
time.
    Mr. May. Thank you, and come to a meeting any time you 
want.
    Chairman Altmire. We will take you up on that.
    This hearing is now adjourned.
    [Whereupon, at 11:23 a.m., the Subcommittee meeting was 
adjourned.]

     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
